<html>
<title> - IRANIAN NUCLEAR TALKS: NEGOTIATING A BAD DEAL?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                        IRANIAN NUCLEAR TALKS: 
                        NEGOTIATING A BAD DEAL?

=======================================================================

                                HEARING

                               BEFORE THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2014

                               __________

                           Serial No. 113-227

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                 U.S. GOVERNMENT PRINTING OFFICE 

91-453PDF                      WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida                     













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Ray Takeyh, Ph.D., senior fellow for Middle Eastern studies, 
  Council on Foreign Relations...................................     6
Mr. J. Matthew McInnis, resident fellow, American Enterprise 
  Institute......................................................    14
Mr. David Albright, president, Institute for Science and 
  International Security.........................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Ray Takeyh, Ph.D.: Prepared statement............................     9
Mr. J. Matthew McInnis: Prepared statement.......................    16
Mr. David Albright: Prepared statement...........................    23

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63

 
             IRANIAN NUCLEAR TALKS: NEGOTIATING A BAD DEAL?

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2014

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2 o'clock p.m., 
in room 2200 Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. Subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions and extraneous materials for the record subject to 
the length limitation in the rules.
    If someone could get the back door, it would be 
appreciated. It is not to keep you in or keep anyone out. We 
just want the door shut.
    Iran has defied and lied to the international community for 
over a decade when it comes to its nuclear weapons program. 
Finally, the West got serious and took a stand and imposed real 
sanctions in 2012.
    The sanctions actually worked and Iran came to the 
negotiating table, but then the West retreated. Loosening up on 
sanctions just when Iran was beginning to feel the consequences 
of its actions was a monumental mistake.
    Netanyahu was correct. When this deal was made by the 
Secretary of State he said that this was a bad deal, a very bad 
deal for Israel and for the United States and for world safety. 
Since then, Iranian leaders have been emboldened by the 
economic relief they have experienced and they have reverted to 
their defiant ways.
    Recently, a top advisor to Iranian President Hassan Rouhani 
said, ``Obama is the weakest of all U.S. Presidents.'' Now is 
the time for the leader of the free world to prove Iran wrong.
    The world, including our enemies and allies, are watching. 
We have already passed the deadline for negotiations to end in 
July and now we await a second deadline, which is next week. 
There is reason to believe that the Iranians----[Loses sound.]
    After all, we will continue to pay them millions whether 
the deadline is met or not, just for the promise of 
cooperation--a promise from, really, an enemy of the world. 
Each attempt at compromise has turned out to be a stall tactic 
by the Iranians.
    While the Iranians have their first string varsity team, we 
are playing our JV team, to quote a phrase. As it is, we don't 
know how many centrifuges the Iranians currently have. The old 
principle of trust but verify does not work in this case 
because Iran has shown that it cannot be trusted.
    They will lie when the truth is not in their political 
interest. The IAEA hasn't been able to verify Iran's 
capabilities. The Iranians could have a bomb in as little as 3 
months.
    The problem is we don't know and neither does the IAEA. 
Making matters worse, we can't take the Iranians at their word 
on their nuclear aspirations. They still haven't come clean 
about their previous suspected nuclear weapons activities 
alleged by the IAEA back in November 2011.
    Iran's real aspirations are simple. They want to annihilate 
Israel, and then they want to annihilate the United States. 
That is what the real leader of Iran, Khamenei, called for just 
last week.
    We are dealing with the devil and the clock is running out. 
The deal cannot be handled solely behind doors away from the 
public and away from scrutiny. There are dire consequences in 
these negotiations and the American people expect their 
representatives--the U.S. Congress--to play a role.
    The U.S. Congress must approve or disapprove any potential 
final nuclear agreement with Iran. Here is what an acceptable 
agreement might look like.
    One, Iran would verifiably take apart its illicit nuclear 
infrastructure; two, Iran would resolve all past issues of 
concern including possible military aspects of its nuclear 
program development; three, the inspections regime must go 
beyond the authorities that the IAEA currently has; four, a 
permanent inspections team in Iran is needed and they must be 
allowed to go anywhere, see anything at any time; five, Iran 
must come into compliance with all six standing U.N. Security 
Council resolutions related to its nuclear program; and six, 
Iran's ballistic missiles program must be addressed.
    Missiles, after all, can be used to deliver nuclear 
weapons. Any deal that does not address this is not only a bad 
deal but a dangerous one. We have to address the issue of 
deliveries.
    And seven, finally, no sanctions relief should be provided 
unless a final agreement can verify and permanently prevent 
Iran from acquiring nuclear weapons.
    Even if an acceptable agreement is reached, the sanctions 
relief must be limited and phased so that we can keep our 
economic leverage. In general, any good agreement is not about 
freezing Iran's nuclear program but dismantling it. Anything 
less simply postpones the inevitable danger that a nuclear-
armed Iran presents to the world.
    I look forward to hearing what our witnesses think about 
where we are and what we should be doing in Congress. The U.S. 
must be clear and unequivocal. There will be no reductions in 
sanctions without verified steps to show that Tehran is 
abandoning, not just freezing, its nuclear weapons program.
    I will now yield to the ranking member, Mr. Sherman from 
California, for his opening statement.
    Mr. Sherman. Thank you, Chairman Poe, for holding these 
important hearings.
    I agree with you that any sanctions relief should come only 
through an act of Congress and I hope that the Iranians 
understand that any waivers granted by this President are 
waivers that do not necessarily apply to any future 
administration.
    Furthermore, looking at the statute, waivers are supposed 
to be case by case based upon the entity applying for the 
waiver, not blanket waivers in effect suspending our sanctions 
statutes.
    The one possible disagreement I have with you is I don't 
think that even at their high water mark our sanctions were 
enough to really bring Iran to the table if that is the table 
where they are supposed to give up their nuclear program.
    We had sanctions significant enough to get them to come to 
the table where they do a kabuki dance and get some relief from 
the sanctions because it is always better to help your economy 
at least even from modest sanctions.
    So to say that we ever had sanctions significant enough to 
threaten regime survival and to cause this regime to be willing 
to give up its nuclear weapons program is questionable.
    The Joint Plan of Action gave Iran some very significant 
relief. First, it caused a pause in the reductions of oil 
purchases that were called for by the Menendez-Kirk provisions 
of the 2012 law.
    Second, it stopped Congress cold from adopting new 
sanctions statutes. And finally, and perhaps most importantly, 
it changed the whole psychology, and much of economics is 
psychology. It caused people interested in the Iranian economy 
to think that things would be on the upswing. Under this Joint 
Plan of Action, we are giving Iran $700 million, albeit of its 
own money, every month.
    I think we have got to be loud and clear to the 
administration that further releases of Iran's frozen funds 
should not occur just because we are going into a new month. If 
these talks are extended they shouldn't be extended with us 
paying a price for that extension.
    Now, we are in a much weaker bargaining position than we 
were at the beginning of this century. During the first decade 
of this century, we didn't enforce our sanctions laws.
    The administration worked very effectively and successfully 
to prevent us from passing any new sanctions laws and the 
Shiites were put in control of Iraq. So today, we have to deal 
with a much weaker hand than if we had started to take this 
program seriously at the beginning of the century.
    We are told that this JPOA has frozen Iran's program. That 
is not true and, to some extent, is true. Some of the program 
has been frozen. Some of it has been rolled back, particularly 
the 20 percent enriched uranium.
    Half has been diluted. Another half has been oxidized. But 
keep in mind even that oxidized portion is far more than Iran 
needs for any peaceful purpose. It is oxidized but it hasn't 
been converted into fuel, pellets or rods so it is pretty 
available for use in creating a bomb and it is more than a 
bomb's worth.
    So, even under this JPOA, they are close to their first 
nuclear weapon. But what concerns me just as much is their 
centrifuges are still turning, creating more and more low-
enriched uranium that is oxidized, but reversing that 
oxidization process is rather easy, low technology and quick.
    This committee has been assured by the administration that, 
as part of this deal, we would learn of the possible military 
dimensions, or PMDs, of the Iranian program.
    Iran has stonewalled the IAEA on that and it should be part 
of any reduction of sanctions or any continuation of the 
suspension of Kirk-Menendez that we find out and that the IAEA 
is given answers to its questions.
    On the other hand, the JPOA has pretty much frozen the Arak 
plutonium reactor and that is one of its positive elements. In 
looking at a final agreement, a lot of focus is on how long the 
agreement will last, what enrichment will be allowed and how 
that enrichment will be monitored.
    We need to look just as much at how much uranium and in 
what enrichment levels Iran is able to stockpile and what 
tracing of ore and monitoring of ore and yellow cake is there 
so that we can make sure that the total grams of enriched 
uranium both in terms of quantity and enrichment level is 
consistent with the allegedly peaceful nature of Iran's 
program.
    Finally, I am going to be asking our witnesses to help us 
identify how we can draft strong sanctions legislation that 
will go into effect in a few months unless Congress receives 
and approves a good deal negotiated with Iran.
    As I said, these sanctions would have to be regime 
threatening. They would have to go beyond where we were before 
these negotiations began, and I look forward to working with 
all of the members of this subcommittee and our witnesses to 
make sure that we are ready with sanctions that will go into 
effect early next year unless Iran enters into a good deal with 
the United States.
    I say that not to make our negotiators' position more 
difficult but because only with such strong sanctions 
legislation is there any hope that they will be successful. I 
yield back.
    Mr. Poe. The Chair will recognize other members for their 
1-minute opening statements. The Chair recognizes the gentleman 
from South Carolina, Mr. Wilson, for a minute.
    Mr. Wilson. Thank you, Mr. Chairman. Mr. Chairman, I thank 
you for your leadership, and Ranking Member Sherman. It is 
really reassuring to see Members of Congress working together 
facing a common threat. This is so unusual.
    I am just so pleased to see you working together and all of 
us working together, hopefully, on this subcommittee. I agree 
very much with the senior senator of South Carolina, Lindsey 
Graham, who, this weekend, pointed out that the administration 
needs to understand that this Iranian regime cares more about 
trying to weaken America and push us out of the Middle East 
than cooperating with us.
    Until we recognize that reality and formulate a regional 
strategy to counter the Iranian regime's malign influence, we 
will continue to harm U.S. national security interest. 
Additionally, I support holding the President accountable by 
requiring congressional approval of any deal that is reached 
with Iran, and I want to conclude by agreeing with Prime 
Minister Benjamin Netanyahu who indicated, ``Iran is not your 
ally.''
    As the Prime Minister said on Face the Nation, ``Iran is 
not your friend. Iran is your enemy. It is not your partner. 
Iran is committed to the destruction of Israel.''
    Facing this, again, I want to thank the leadership who are 
here today and in a bipartisan manner to protect the people of 
the Middle East and the United States. Thank you.
    Mr. Poe. The Chair recognizes the gentleman from Illinois, 
Mr. Kinzinger, for 1 minute.
    Mr. Kinzinger. Thank you, Mr. Chairman. I think it is 
important to remind everybody here that during the time of the 
Iraq war it is estimated that upwards of half of the Americans 
that were killed were killed either directly or indirectly by 
Iranian EFPs--explosive foreign penetrators--Iranian direct 
military action and things along that line.
    So yeah, you are right, Mr. Wilson. They are not our 
friend. I think the message to Iran is simple--just stop or pay 
a price, and I think we had them at that position a year ago, 
and for some reason we saw an administration collapse in a 
desperate desire to enter a deal.
    We knew that, of course, the first 6 months wouldn't happen 
so we extended another 6 months and I believe that in a week 
they are going to come in front of Congress and say, we need an 
additional 6 months, which I think would be the wrong message.
    So the question here is, with the collapse of U.S. foreign 
policy in the last couple years, what leverage do we have and I 
think it is important for us, and I appreciate the chairman 
calling this hearing, to stand together and say that we will 
not allow a bad deal with Iran.
    Mr. Poe. I thank the gentleman. The Chair will yield 1 
minute to Mr. Perry from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. I have, like many of 
us, numerous concerns regarding the Joint Plan of Action and 
the continued negotiations as being a viable avenue for 
preventing--I just stress preventing--Iran from obtaining a 
nuclear weapon, which is and should be the primary objective of 
our policy and our actions.
    However, a great concern that seems to be sometimes getting 
lost in the more technical debate is the potential for a 
nuclear agreement to recognize Iran's right to enrich, and I 
take great exception with this.
    It sets a unacceptable precedent, in my mind. Other 
signatory states to the Non-proliferation Treaty--the NPT--may 
then choose to enrich themselves after they observe Iran being 
allowed to continue to enrich despite breaking its NPT 
commitments.
    A nuclear arms race is absolutely the last thing we need in 
this region of the world, and I yield back.
    Mr. Poe. The gentleman yields back his time.
    The Chair will recognize the other gentleman from Illinois, 
Mr. Schneider, for his opening statement.
    Mr. Schneider. Thank you, Mr. Chairman, and I want to thank 
the witnesses for joining us today on a most crucial issue as 
we sit less than 1 week from the deadline for negotiations 
under the Joint Plan of Action.
    The prospect of a nuclear Iran--I believe is the single 
greatest threat to the region, to the world, and it is 
imperative that we find a way to prevent that.
    If there is to be a deal it must absolutely ensure that any 
and all paths for Iran to get a nuclear weapon are blocked and, 
ultimately, permanently closed.
    What I am looking forward to hearing from you all in the 
time we have together today is your sense of the potential for 
a deal, whether it is in the next week or shortly thereafter, 
what are the consequences and concerns if there is to be a 
delay further than on November 24th, as the current deadline 
is, and, on the assumption that there is not a deal to be had, 
what would be the next steps you would want to see from this 
Congress.
    And with that, I yield back. Thank you.
    Mr. Poe. Do any other members wish to make an opening 
statement? Seeing no show of hands, the witnesses will be 
introduced and then they will have their time for opening 
statements and then proceed to questions.
    Dr. Ray Takeyh is a senior fellow for Middle East studies 
at the Council of Foreign Relations and an adjunct professor at 
Georgetown University. Dr. Takeyh was previously a senior 
advisor on Iran at the Department of State and is widely 
published.
    Our next witness, Mr. Matthew McInnis, is a resident fellow 
at the American Enterprise Institute, focusing on Iran. 
Previously, Mr. McInnis worked on Middle East and 
counterproliferation issues during his long tenure at the 
Defense Intelligence Agency.
    And Mr. David Albright is the founder and president of the 
Institute for Science and International Security. Mr. Albright 
holds Masters degrees in both physics and mathematics.
    Our first witness, Dr. Takeyh, we will start with you. You 
have 5 minutes. Thank you.

   STATEMENT OF RAY TAKEYH, PH.D., SENIOR FELLOW FOR MIDDLE 
         EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Mr. Chairman, for inviting me here. 
I will be brief and it is always good to be with
    Mr. Poe. If your mike is working.
    Mr. Takeyh. Oh, sorry. Better?
    Mr. Poe. A little better.
    Mr. Takeyh. I think it is fair to say--I am sure there will 
be agreement on this issue, perhaps even a unanimous one--that 
the Islamic Republic has not been responsible stakeholders in 
international affairs.
    I don't think I am being too provocative with that. Yet, I 
think Iran over the years has had some success in conditioning 
the narrative of the nuclear negotiations.
    The Iranian regime has obtained an acknowledgment of its 
right to enrich. That is not necessarily a right in principle 
but acknowledgment in practice, which is a distinction of a 
rather limited nature.
    It has also persistently suggested that all U.N. Security 
Council resolutions are politically contrived and have neither 
authority nor legitimacy, and there may be indication that the 
P5+1 countries--the five members of the Security Council and 
Germany--that are negotiating on this issue may actually not 
adhere to certain aspects of the U.N. Security Council 
resolution themselves, particularly the provision demanding 
suspension, and it is probably unlikely that a final agreement 
will have a suspension component and that brings into question, 
of course, the legitimacy of international law in this 
particular respect.
    Iran has continued to insist that its existing enrichment 
capacity has to be respected and it has also maintained that 
any inspection modality has to be limited to the existing NPT 
measures which, perhaps, fall short of some of the expectations 
that we have.
    Another aspect of the Iranian diplomacy over the past year 
that has been successful has been President Rouhani's notion 
that he has inculcated rather effectively that he is under hard 
pressure from hardliners at home and the implication of that 
being that if the Western powers want a deal they should 
essentially deal with him and make the necessary concessions to 
obtain that deal.
    I don't think that is true. I think a more careful 
examination reveals that the Islamic Republic has actually 
reached an internal consensus. Today, I think the Islamic 
Republic is ruled by a unity government and some of the 
factionals in that has historically bedeviled the theocracy has 
at least for now been set aside.
    For the first time in the three decades of the existence of 
the Islamic Republic it is not troubled by divisions and 
dissension that have plagued previous governments. So I am not 
quite sure if President Rouhani is under the type of pressure 
that he speaks about.
    However, I think going into these negotiations there are 
many advantages that the Western powers have, particularly the 
United States, and one of those advantages are raised 
expectations. There has been a lot of raised expectations.
    Both parties--United States and Iran--have unwisely at 
times raised expectations about a possible deal and fed a media 
narrative of a potential historical breakthrough between the 
two old nemesis.
    Suddenly, the hard-pressed Iranian public has come to 
expect imminent financial relief should the negotiations not 
yield an agreement. Then Supreme Leader Ali Khamenei, not 
President Obama, would have a popular backlash at his hand. A 
disenfranchised dispossessed population is an explosive 
political problem for the Iranian leadership.
    Therefore, I think the Western powers should not be afraid 
to suspend negotiations or walk away from the table should Iran 
prove intransigence. Ironically, a stalemate in negotiations 
are likely to pressure Iran into offering more concessions 
rather than the United States.
    I want to highlight briefly that what we are dealing with 
here is not necessarily just nuclear infractions but also the 
Islamic Republic's regional policies. The Islamic Republic 
remains a revisionist state that has done much to imperil 
American interests in the Middle East, as was just mentioned.
    It has been recently fashionable to suggest that the two 
parties have an interest in the rise of ISIL and that could 
essentially offer a pathway for cooperation. On the surface, 
this may seem sensible. Both parties do have an interest in 
defanging the militant Sunni group.
    However, the essential axiom of Middle East politics has 
always been that the enemy of my enemy is still my enemy. The 
ebbs and flows of war on terrorism should not be allowed to 
conceal the fact that the Iranian regime and its attempt to 
upend the regional order remains the United States' most 
consequential long-term challenge.
    The Islamic Republic is not a normal nation state seeking 
to realize its legitimate aspirations within the existing 
international system. It is a country whose leadership tends to 
put premium on conspiracies to explain its predicament, and as 
was mentioned it has been a staple of Ali Khamenei's speeches 
that United States is a declining power whose domestic sources 
of strength are fast eroding.
    Finally, the United States and Iran tend to see the region 
from opposite ends. The Islamic Republic's ideological 
compulsions and sheer opportunism makes it an unlikely ally for 
the West.
    The coincidence of mutual interest in opposition to a 
radical Sunni group should not blind us to the enduring threat 
that the Iranian regime represents to its population and to the 
region at large.
    Thank you.
    [The prepared statement of Mr. Takeyh follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Perfect timing. The Chair recognizes Mr. McInnis 
for 5 minutes.

STATEMENT OF MR. J. MATTHEW MCINNIS, RESIDENT FELLOW, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. McInnis. Thank you, Chairman Poe, Ranking Member 
Sherman and distinguished members of the House Committee on 
Foreign Affairs.
    Thank you for inviting me here to testify on the current 
ongoing Iran nuclear negotiations. As has already been noted, 
prospects for an actual agreement on the 24th of November are 
dim but I do not underestimate the desire on both sides to get 
a deal.
    We may yet see a breakthrough but I think it is doubtful. 
While I strongly support finding a diplomatic solution to the 
impasse with Iran, I also share your concern that this 
eagerness on our part may cause us to settle for a deal that 
has not sufficiently addressed the challenge of their program.
    I fear since the beginning we have not fully understood 
what was driving Iran to the table and underestimated our 
leverage once they got there. It is a recipe for a very 
frustrating diplomacy.
    So what is Iran's calculus here? Most importantly, we 
should remember there has been no sign--and I think this has 
been noted here before--no sign of real change in their nuclear 
policy.
    They still want to man a robust Iranian enrichment program 
that is far beyond what is needed for civilian purposes. They 
have shown no willingness to come clean on the possible 
military dimensions of their nuclear research.
    If Iran had had a true change of heart we could have 
resolved all the outstanding concerns a long time ago. Iran 
would have flung open the doors of Parchin military complex to 
IAEA inspectors.
    That is not the case here. This is not South Africa. This 
is not Libya. The new diplomatic approach adopted by the 
supreme leader and President Rouhani is notable but at its 
heart it is a tactical move.
    They may accept some limits on the output of the program 
but no actual reversal of technological achievements and 
capabilities will be allowed. This is why we keep stumbling 
over their red lines, refusing to dismantle any part of their 
nuclear infrastructure.
    However, the supreme leader and President Rouhani and the 
rest of the Iranian leadership have decided they need to get 
out from underneath the sanctions and I agree with my 
colleague, Dr. Takeyh here, on his assessment of the internal 
dynamics inside the regime right now.
    The short and long term economic challenges are just too 
great for them. They need this deal now and, frankly, they need 
it more than we do and we don't take advantage of that.
    So what are the basics of an acceptable deal? They are 
quite simple and I think we have discussed them already in the 
opening statements--a reasonably verifiable regime administered 
by the IAEA that ensures Iran cannot pursue a nuclear weapon 
with a clear mechanism to reimpose sanctions for noncompliance.
    My colleague, David Albright, will certainly go into much 
more of the technical discussions about things that we need to 
address. But first I want to highlight a couple of things I am 
concerned about.
    First, we need to be aware of the trap of centrifuge 
numbers. As the efficiency of Iran's centrifuges improve, 
actual quantities of the machines will matter less. We need to 
have the right metrics for any type of deal on that topic.
    Second, for me, the heart of the matter, really, is 
bringing Iran into compliance with the IAEA on the possible 
military dimensions. There should be no relief in the most 
critical sanctions without resolving this issue satisfactorily.
    Third, given the long history of Iran's nuclear activity 
being exposed rather than willingly acknowledged, the need for 
a rigorous verification regime goes without saying. There is 
not trust here, just verify.
    Since there was a real risk of additional covert enrichment 
or weapons development activity, the ban of critical 
technologies, especially for missiles, needs to be maintained 
to the greatest degree possible.
    Fourth, we need to be very careful about how sanctions are 
unravelled. Many sanctions are related to Iran's nuclear 
program even if they are also tied to the regime's support for 
terrorism and human rights violations.
    The reverse is also true. Unthoughtful relaxation of 
financial sanctions, for example, could prove a great boon to 
the Islamic Revolutionary Guard Corp's activities across the 
region.
    And that brings me to my final point and, again, agreeing 
with my colleague, Dr. Takeyh, we should not be looking to use 
the nuke negotiations as a stepping stone, as a confidence-
building measure toward greater cooperation with Iran, unless 
we see real changes in their behaviors, which I do not expect 
under this supreme leader.
    Tehran is still trying to overhaul the political system in 
the region through subversive and violent means. It is still 
supporting and building proxy forces beholden to Iran, designed 
to threaten the U.S. and our allies and ensure the capacity to 
execute terrorism missions worldwide.
    This includes groups like Lebanese Hezbollah, Palestinian 
Islamic jihad, Hamas and, most recently, the Houthis on the 
march in Yemen. Our end states for Syria and Iraq are 
different. We may have some form of deconfliction with Quds 
Force Commander Qasem Soleimani against ISIS on the ground in 
Iraq. We may even have some form of detente. But this is not 
rapprochement. Until we see actual shifts in the policy from 
the supreme leader, our negotiations, our sanctions strategies 
and our regional policies need to be very sober.
    We should recognize at best we are checking the regime's 
worst behavior while we wait for real change in Tehran.
    Thank you.
    [The prepared statement of Mr. McInnis follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. The Chair recognizes Mr. Albright for 5 minutes 
his opening statement.

   STATEMENT OF MR. DAVID ALBRIGHT, PRESIDENT, INSTITUTE FOR 
               SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Thank you, Chairman Poe and Ranking Member 
Sherman, for the opportunity to testify today.
    I would like to just go through several points, really, 
headlines of what I see is important to consider today in this 
deal.
    First, I think a long-term deal, if carefully crafted, can 
keep Iran from building nuclear weapons. But getting that deal 
is a major challenge, particularly by November 24th. If not 
achieved, the interim deal will need to be extended, and that 
brings me to my second point.
    The interim deal has accomplished many worthwhile goals, as 
Mr. Sherman has pointed out, but it appears to be fraying at 
the edges and needs to be strengthened if it is to continue 
being effective. We work on the technical side of this and we 
noticed in the last International Atomic Energy Agency report 
that some of the expectations of the interim deal have not been 
met. One is that Iran started to enrich for the first time in 
an advanced centrifuge called the IR-5.
    I know we relayed those concerns to the administration 
pretty early on Friday and the administration got a commitment 
by Iran that weekend that it would stop. Whether it will 
continue to stop, we don't know. Iran continues to or still 
needs to oxidize at least 500 kilograms of newly produced 3.5 
percent LEU that they produced, and this was produced since the 
July extension.
    Also, Iran had said it would convert 25 kilograms of the 
near 20 percent LU oxide into fuel assemblies. From the IAEA 
data, only 5 kilograms have actually been turned into fuel 
assemblies and I think we don't view these as violations of the 
deal since they still have until November 24th. But to us and 
ISIS it represents a fraying of the deal and so--even if it is 
extended--these things need to be addressed.
    The third issue I want to discuss, and I won't spend much 
time on it because I think we are all in agreement, is that, 
there has been little progress on getting Iran to address the 
IAEA conditions and I will just say that there needs to be at 
least concrete progress on that issue before a deal is signed.
    Obviously, Iran can't address all the IAEA's issues prior 
to November 24th and, in fact, the IAEA director general has 
said Iran isn't even trying.
    But the negotiators should only sign a deal if Iran has 
made some concrete progress and that can be anything from 
allowing visits to the military sites such as Parchin to some 
kind of international recognition that Iran had a nuclear 
weapons program and then others can think of other things.
    Later on, Iran is going to have to address the IAEA issues 
and some sanctions are going to have to be tied to that. I 
don't know what the U.S. is thinking on that but I would hope 
that there are very significant sanctions tied to actually 
addressing those issues.
    Another issue that we have worked on extensively in the 
last several months has been the sanctions on what we call 
proliferation sensitive goods. They have got to stay in place 
during the length of the agreement or through at least most of 
it until Iran has demonstrated that it is in full compliance 
and things are going well. And in particular, U.N. Security 
Council sanctions on such goods need to remain in place.
    Iran is not expected to stop seeking proliferation-
sensitive goods abroad for its missile and other military 
programs. It may seek goods abroad for its clandestine nuclear 
activities and facilities.
    It is certainly doing so today. Iran's regime is well known 
to European authorities, including the Germans, for constantly 
trying to break their laws. In 2012 and 2013, more than two-
thirds of their 264 investigations in Germany were involving 
the Islamic Republic. And Germany expects the proportion to 
remain the same this year. So Iran is a habitual sanctions 
violator and that is not expected to change.
    Now, if the sanctions legislation or sanctions continue 
through the U.N. Security Council resolutions there will be a 
need to provide goods to authorized nuclear programs, whatever 
level of those programs that remain, and the precedent for that 
is the exemption created for the Bushehr reactor and that 
exemption can be applied to an authorized nuclear programs.
    The difference between the Bushehr exception and any newly 
authorized exports would be that that channel or procurement 
channel is going to have to be monitored extremely carefully 
and involve the U.N. panel of experts, the International Atomic 
Energy Agency and supplier states.
    The fifth point I want to address is that I think we have 
all agreed that Iran should have a limited number of 
centrifuges. My group probably has one of the high numbers. We 
would accept up to 4,000 IR-1s and view that level can be 
verified.
    Now, the important way to strengthen that goal is also to 
reduce the stocks of low-enriched uranium and there has been 
discussion in the media about how the administration plans to 
remove large amounts of the stocks from Iran. I think that is a 
workable proposition but it should not substitute for the 
reduction in numbers of centrifuges--it should strengthen that 
goal but it should not substitute for the goal of achieving low 
numbers of centrifuges.
    And I just want to close by mentioning that Congressman 
Sherman mentioned uranium ore. That often does not receive the 
attention it needs.
    The administration has told me in the past that they are 
seeking limitations on uranium ore but we will see if that 
happens. But it requires not only knowing how much they made it 
total, but also knowing how much they are making every year, 
how much they have stockpiled, their past illicit efforts to 
acquire uranium internationally and then to cap that uranium in 
a way that Iran would not have more uranium on hand inside the 
country than it needs----
    Mr. Poe. Conclude your remarks, please.
    Mr. Albright [continuing]. It needs to meet its actual 
needs.
    Thank you. Sorry.
    Mr. Poe. Thank you.
    Mr. Albright. Sorry for going over.
    [The prepared statement of Mr. Albright follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Poe. Thank you, gentlemen. The Chair will begin with 
its questions--5 minutes of questions.
    Are the Iranians working on a delivery system for nuclear 
weapons--intercontinental ballistic missiles?
    Mr. McInnis. I would say that the pursuit of an ICBM has 
been something that the Iranian regime has been going after for 
some time. I think the U.S. intelligence community has been 
watching that fairly closely.
    So, obviously, they portray it as usually tied to their 
space program or other types of activities but
    Mr. Poe. The Iranians have a space program?
    Mr. McInnis. They have been able to put some stuff up 
there.
    Mr. Poe. I understand. But the intercontinental ballistic 
missile pursuit that is not a part of the negotiations and this 
discussion, as far as I know. Is that correct?
    Mr. Albright. Yes. No, the missiles are not. That is one of 
the reasons why you want to keep the U.N. Security Council 
sanctions in place because one would expect them to go out and 
acquire or seek goods illicitly.
    Now, the reentry vehicle that would hold a nuclear weapon 
and the warhead itself are certainly part of this and a lot of 
the IAEA's concerns are exactly on those two issues. In 2003, 
their information is that they were developing a reentry 
vehicle and developing a warhead that was about .55 meters 
across that could fit inside that reentry vehicle. So that part 
of it is very much part of this issue.
    Mr. Poe. Are the Iranians delaying and cheating at the same 
time, in your opinion? Delaying implementation of another deal 
but also pursuing violations of previous agreements. What is 
your opinion on that?
    Mr. McInnis. I mean, would you characterize the IR-5 issue 
that has come up as a----
    Mr. Albright. Yes, we asked the question if the IR-5 or 
feeding the IR-5 was a violation. I mean, we think it shouldn't 
have happened. I mean, we are not lawyers so I would go as far 
as saying we think it shouldn't have happened.
    Now, the issue of violation. Right now the IAEA says that 
Iran's declared program is in compliance with its obligations 
under the nonproliferation treaty.
    They cannot say if there are undeclared nuclear activities 
or facilities that Iran may be pursuing. They don't have the 
mechanisms and the tools to do that. So we just don't know.
    On the PMD, the IAEA continues to say that some of the 
activities, and they would talk about nuclear weapons-related 
activities, may have continued and I don't know if that would 
be a violation but it would certainly be troubling if that was 
the case.
    Mr. Takeyh. I just----
    Mr. Poe. Sure.
    Mr. Takeyh. I think there are six U.N. resolutions--
Security Council resolutions--including 1929 that was 
negotiated in May 2010 that have enjoined Iran to suspend all 
its enrichment and reprocessing activities.
    And so the continuation of those activities stand in 
violation of that. So in a sense, the entirety of the Iranian 
program that continues to operate is an illicit one.
    Mr. Poe. Mr. McInnis, do you want to weigh in that?
    Mr. McInnis. No. I certainly don't disagree with Dr. 
Takeyh's assessment on that.
    Mr. Poe. You do disagree or do not?
    Mr. McInnis. No, I definitely do not disagree with it. What 
I would add is, certainly, given the history of Iran's nuclear 
program, in my own personal opinion, I would be very, very 
surprised if there is not some type of clandestine and other 
types of activities ongoing that we, obviously, don't know 
about or it is going to be a while before we find out.
    So that is, again, there is nothing in their history to 
change that assessment.
    Mr. Poe. Has the supreme leader's statements, philosophy 
about demanding the destruction of Israel and then the 
destruction of the United States, has that changed his 
political statements?
    Mr. Takeyh. No. Actually, he has remained rather persistent 
in his notion and kind of fantastic claims that he attributes 
to the United States such as, for instance, that the United 
States deployed atomic weapons in Japan to test them out 
against--to see how it would work on human beings. I mean, he 
makes--those statements continue unabated. So he is not 
providing his nuclear negotiators with sufficient public 
relations concessions.
    Mr. Poe. And I agree with you. He has not changed their 
philosophy about destruction of Israel and the United States 
and we ought to deal with them with that understanding.
    The Chair will yield 5 minutes to the ranking member, Mr. 
Sherman from California, for his opening or his questions.
    Mr. Sherman. Thank you. We ought to be trying to prevent 
them from developing missiles but let us remember you can 
smuggle a nuclear weapon. It is about the size of a person.
    If Iran were to smuggle one into an American city and then 
let us know they had it somewhere there, that would put them in 
a position to blackmail us. Or if they decided to use a nuclear 
weapon against the United States they could do so with 
plausible deniability and I don't know how you would have 
retaliation in the absence of being sure that you knew where 
the weapon came from.
    Among all the things we are doing for Iran or at least in 
ways that benefit them our Sunni allies and human rights groups 
have asked us for a no-fly zone. That might very well lead to 
the departure of Assad, but we have not done so, just one of 
the many forbearances that Iran benefits from. I don't want to 
get partisan here but I noticed one of my colleagues talking 
about the collapse of our foreign policy under this 
administration. That implies that there was a foreign policy 
against Iran with the prior administration. I will simply say 
that most of you think this is genuine male pattern baldness.
    It is actually what happens to a Member of Congress who 
spends 8 years pounding my head into a very effective and 
successful Bush administration that was successful in not 
enforcing a single one of our sanctions and not allowing 
Congress to pass a single significant statutory sanction in 8 
years.
    The question is what is to be done. We are going to need 
additional sanctions on Iran unless we get a good agreement and 
we are not going to get a good agreement if we don't have the 
prospect of much tougher sanctions, regime-threatening 
sanctions.
    I have got two ideas I want to preview with our panel but, 
more importantly, I want to get your ideas because our 
negotiators will not be successful unless Iran is convinced 
that their economy will be crippled in 2015 by actions taken in 
the United States Congress should they fail to reach a deal 
with the United States.
    One of those ideas is to take all the way down to zero in a 
3-month period the amount of oil that we allow countries to buy 
and still be able to transact business with the New York Fed 
and dollar U-turn transactions.
    We listened to our allies who said, don't eliminate all of 
our access to Iranian oil--there might be an oil shortage and 
what will that do to our economy.
    The world is currently swimming in oil. Some of my 
colleagues are concerned that oil is selling too low and that 
that is having an averse effect. I don't join them in that 
pain.
    But, certainly, our allies can deal with $75 a barrel oil. 
Second, we could provide that--so as to cut Iran off from all 
the major Western and Japanese multinational corporations that 
if any corporation--has any contract with the United States 
Government that it must certify that all of its parent and 
subsidiary and brother-sister corporations are adhering to U.S. 
sanctions against Iran, which I describe as the not one paper 
clip rule, so that we would put Iran in a position where it 
could not do business with any of the world's major 
multinational groups or corporations.
    I would like our--I will start with you, Doctor, both to 
comment on those but to give me some other ideas. What would 
cause at least a little bit of fear in Qom right now?
    Mr. Takeyh. The Iranian Central Bank has suggested, for 
what it is worth and it is usually not worth very much, that 
what they need for their budgetary allocations about oil to be 
about $70.
    So any kind of reduction----
    Mr. Sherman. Oh, clearly, the best sanctions didn't come 
from our committee. The best sanctions came from lowering the 
price of oil from $140 down to below $75.
    Mr. Takeyh. So anything below that, if that figure is taken 
into consideration, will likely to affect it. To have the kind 
of sanctions regarding cutting off Iran along the pace that you 
are suggesting, I think that has to be accompanied by very 
significant diplomacy with our allies and China and other 
countries.
    In and of itself, I think it is going to create some 
disquiet in those particular capitals and it is going to lead 
to a lot of complaints. I think with suitable diplomacy and a 
lot of work it might come about.
    My suggestion has always been in terms of congressional 
action. A lot of people are involved in dealing with the 
Iranian nuclear negotiations--5+1, U.S. and so on.
    Mr. Sherman. I have got to go. I have got to go on to your 
co-panelists here.
    Mr. Takeyh. I think you should have the parameters of what 
is an acceptable deal legislated.
    Mr. Sherman. Yes?
    Mr. McInnis. I would just add to Dr. Takeyh Rouhani's 
economic reforms, which are actually part of what has been 
going on behind the scenes here, I mean, Ray is right in that 
they need about, you know, $70, $75 to be able to maintain 
their current budget.
    But for the kinds of structural reforms that Rouhani needs 
to get the economy moving past the really horrible management 
of Ahmadinejad for the previous 8 years, he needs more money 
than $70, $75.
    So that is one of the reasons why I think the oil is having 
a major impact on their calculus right now. Certainly, on being 
able to cut them off from finances and money to the greatest 
degree that you can do toward that is always going to be the, 
you know, that plus oil prices is the--is the right 
combination, from my perspective.
    Mr. Albright. Yes. We don't work on sanctions but I think 
what we see in my group is there is a need for a Plan B, as we 
have called it. Ideally, that Plan B would be run by the 
administration, if things are not going to work out. I don't 
think we have reached that point. I don't think we will reach 
it in November if there is an extension, that there is a need 
to be able to impose sanctions and to be able to modulate those 
sanctions.
    And so I think, from my own point of view, the best 
situation would be if the administration and Congress are 
working together to create a Plan B.
    Now, I understand your frustration. There isn't exactly 
that kind of cooperation going on and so----
    Mr. Sherman. We will get to the administration panel next 
and its presence here demonstrates how closely they are working 
with us.
    Mr. Albright. Okay. And so I think it if this isn't going 
to work, I think the planning for the additional sanctions has 
to be going on now because you also, and I would want to 
recommend the administration do this, you don't want to have it 
happen in 1 day--in 1 day.
    Mr. Poe. Excuse me, Mr. Albright. Time has expired. Time 
has expired.
    Mr. Albright. Okay.
    Mr. Poe. Excuse me. The Chair will recognize the gentleman 
from South Carolina, Mr. Wilson, for 5 minutes for his 
questions.
    Mr. Wilson. Thank you, Judge Poe, for your leadership in 
conducting this hearing. I am very grateful that in my home 
state of South Carolina we have a significant number of Iranian 
Americans who are leaders in our state in the medical community 
and business community.
    It is a very dynamic community that means a lot for our 
state, and I meet with so many of them who are in distress 
about the authoritarian regime in Tehran and how sad it is that 
the young people of Iran are held back because of the regime 
there and denied freedom and democracy, which can be so 
positive for such a great culture as that of Iran.
    Mr. McInnis, a very important question which is facing 
Congress is what should be the minimum requirements that Iran 
should meet before Congress agrees to lift the major sanctions 
that it has imposed?
    Included in the question is the future of Iranian 
enrichment the Arak heavy water reactor, answering questions 
about the possible military dimensions and past Iranian 
violations of the United Nations sanctions, the underground 
Fordow fuel enrichment plant and Iran's nuclear-capable missile 
force?
    Mr. McInnis. I mean, the short answer should be all of 
those but, certainly, if we are going to be looking at lifting 
the sanctions and, again, I want to emphasize and from my 
comments and my submitted testimony that, you know, we have to 
be careful about what is tied in with human rights violations 
and counterterrorism sanctions in with the nuclear sanctions.
    Not that they were necessarily all tied together to begin 
with, but some of these same mechanisms that we use, you know, 
so far as financial sanctions have a compounding effect on the 
situation.
    For me, I mean, it is coming clean on the PMD and being 
able to cap the ability for their enrichment to a breakout 
level. We talked about the breakout idea. Six to 12 months, for 
me, is a minimum--that we have to have that type of warning to 
be able to do something and we need to be--do whatever we can 
to prevent whatever clandestine or covert activities are 
happening right now.
    Mr. Wilson. Thank you very much, and Dr. Takeyh, how do we 
trust a regime that has doubled executions of its own people, 
called explicitly, as you have indicated, for the destruction 
of another U.N. member, being the state of Israel, labels the 
United States the Great Satan, exports terrorism as a matter of 
state policy and has trained and supplied terrorists, including 
the IEDs that we faced in Iraq which have killed U.S. soldiers?
    And how can we trust them to abide by any agreement?
    Mr. Takeyh. I think it would be very difficult and I 
suspect in any agreement as even in JPOA there will be 
occasions and indications of violations. There are two things I 
will say.
    Any agreement negotiated with Iran, as I think Dave has 
suggested, has to have clarification of previous military 
activities. I don't know if you can actually verify a current 
agreement without knowing the clandestine history of the 
program.
    Second of all, I will say U.N. Security Council resolutions 
should be suspended in the event of a deal and not discarded 
because then you have a mechanism that can come online should 
there be indication of Iranian violation.
    Mr. Wilson. Thank you very much. And, Mr. McInnis, out of 
what has been leaked and/or disclosed about a potential final 
deal, what most concerns you?
    Mr. McInnis. For me, it is that we are not going to be able 
to resolve the PMD issues and that, frankly, that we are not 
going to be able to really have an effective metric and 
mechanism to monitor the enrichment capacities.
    So those and, certainly, the other sidebar issue of whether 
this is going to lead into other efforts we may do with them 
regarding ISIS, and other things that I fear very much where 
the path that we are going down, we are being a little naive 
about that.
    Mr. Wilson. Thank you very much and I yield the balance of 
my time.
    Mr. Poe. The Chair recognizes the gentleman from 
California, Mr. Lowenthal, for 5 minutes.
    Mr. Lowenthal. Thank you, Mr. Chair. I am just trying to 
understand kind of where we are now and where we go to follow 
up, I guess, on some of the questions raised by Congressman 
Sherman.
    As I understand, we are not going to have an agreement. We 
will probably be talking about an extension after the 24th of 
November. I am also hearing that both Iran, for different 
reasons, and the United States it would be beneficial to both 
to have some kind of agreement for different reasons and that--
and I am wondering, and I thought I heard also that a stalemate 
in these negotiations will benefit the United States more than 
Iran.
    Is that true or not, and why is that so and how long does 
that mean, given the existing conditions that we have?
    Mr. Takeyh. In terms of extension of an agreement, November 
24th is a sort of a self-declared deadline. They actually--
according to the terms of JPOA, they have until January so that 
date is in many ways a self-imposed deadline.
    I think the Iranian regime, given its predicament, probably 
requires an agreement more than 5+1 do simply because they 
arouse expectations of the population that they are going to 
get financial relief and somehow their economic fortunes are 
going to turn, and you really cannot have a normal economy in 
Iran in absence of a nuclear agreement because so much of its 
economic activities are retarded by international sanctions, 
banking regulations and so on.
    So we do have that leverage going forward that the Iranian 
regime is in a worse position than we are.
    Mr. Lowenthal. Do you all agree with that?
    Mr. McInnis. I, certainly, would agree with that and I 
pointed out in my initial comments that we are in a situation 
where we have underestimated, in my opinion, our leverage. And, 
as was also pointed out by the chair and the ranking member, we 
are actually in a situation of bringing them to the table but 
in many ways the effects of these sanctions were not really 
allowed to settle.
    I mean, we could have gone much further by keeping up these 
sanctions at their current pace because the impact that was 
happening on their reduction in GDP, their inflation issues, 
those are very serious and, again, as I pointed out before, it 
wasn't just their current economy.
    They have very long-term problems that in some ways have 
nothing to do with the sanctions. But they can't solve those 
problems without having major infusions of cash and better 
access to the international markets.
    Mr. Albright. Yes. I guess on a technical level and then on 
a sanctions level I am not sure I agree. I mean, I think in the 
short run I think we have a tremendous advantage.
    But they continue to operate centrifuges. They are learning 
to operate them better. They are working on more advanced 
centrifuges in places that are outside the purview of the 
International Atomic Energy Agency.
    The way they have structured their centrifuge R & D program 
the IAEA does not know how well they are working even at the 
places where they are monitoring.
    And so I think they are going to make progress and that is 
worrisome in the long run. The other is that, again, I am not a 
sanctions expert but I can look and see in the news from places 
like Germany the exports to Iran are increasing.
    You know, there are things happening. It is just, you know, 
people are getting used to it. They are being more relaxed 
about it. I mean, we continue at ISIS to see Iran actively 
going out to buy things illegally for its nuclear program.
    We see in the last couple years that they have actually 
become more sophisticated at hiding, particularly, the 
connection between the nuclear program in Iran and the trading 
companies that go out and get these things and that is 
important because you can't chase everything.
    So if you had information linking the effort to the nuclear 
program then you would apply more resources. So I think that in 
the long run I am not so sure, I think, that this plays best 
for us.
    Mr. Lowenthal. Thank you, and I yield back.
    Mr. Poe. I thank the gentleman. The Chair recognizes Mr. 
Kinzinger from Illinois for 5 minutes and his questions.
    Mr. Kinzinger. Close. Close. Thank you. Thank you, Mr. 
Chairman, and thank you all for being here. I will say to the 
ranking member and, with a bit of a smile, I get your point 
about the collapse of foreign policy.
    I wasn't speaking of just Iran. I was more thinking of the 
rest of the world and everywhere else. So but let me just say 
thank you all for being here.
    As I mentioned in my opening statement, with Iraq 
specifically, again, and I want to make this mention one more 
time, as Mr. Wilson alluded to as well, there are American 
soldiers that are not alive today because of the actions of 
Iran.
    I think that is something that is very important to keep in 
mind. Not just direct Iranian involvement, which existed--I 
know that first hand as a veteran of the area--but also with 
the supplying of materiel and knowledge meant to kill American 
soldiers, meant to take their lives away because of their 
meddling in the region, which they have been doing everywhere.
    We see Iran very vested in propping up Bashar al-Assad in 
Syria, investing financial resources in this, by the way. At a 
time when supposedly their economy is so bad even in the 
interim deal that they are, you know, going to do whatever the 
United States wants, they are investing in the existence of 
this guy who has brutally murdered 200,000 of his own people--
Bashar al-Assad.
    Keep in mind, I know ISIS is a major concern. We are all 
united on that. But the existence of Assad is an anathema to 
humanity, in my mind, and the way he governs.
    I just want to ask the three of you a couple of questions. 
First off, what message do you think was sent to Iran in terms 
of helping them to come to an agreement that makes sense for us 
and for the peaceful world?
    What message was sent? You know, what we are seeing today 
in Russia, for instance? Iran doesn't just look at the Middle 
East. They look at the United States foreign policy all over 
the place. The Iraq pullout in 2011 as well as the comments by 
the administration about this idea of a pivot away from the 
Middle East, which I know and I have heard from the 
administration they regret using those words and I understand 
that and I appreciate it.
    But they were used and that is the perception. So I ask the 
three of you if you could talk about kind of those foreign 
policy areas where, I think, there has been some difficulty and 
talk about what message that has sent to Iran in terms of 
motivating them to come to the table with a good deal for us.
    Mr. Takeyh. On the issue of the tensions between United 
States and the Russian Federation, I think they have become 
more obvious and a more tangible impact on the negotiations if 
there is a breakdown of some sort of a diplomacy on the P5+1.
    I think then you can see the Russians pulling away from the 
5+1 consensus as may the Chinese as well in terms of 
repatriating Iranian money and so on. So the Russian angle is 
not obvious at this point but it can be.
    The region itself today is, as you mentioned, Congressman, 
is rather disorderly, to say the least, and Iran is an 
opportunistic country that is trying to take advantage in 
Syria, in Iraq, in Lebanon, in Yemen, and so they do seem to be 
engaged in a sort of a cold war with the Saudis that is playing 
us off throughout the region.
    And as I have mentioned, there is a persistent narrative on 
the Iranian leadership that, you know, they do have 
opportunities at this point that they have to exploit because 
they were not that obvious before.
    Mr. Kinzinger. But wouldn't it--it also seems that if we 
had Iran, and I think we did a year ago, to the point where 
they were in pretty--I mean, we had our boots on their neck, 
basically, on these--or before the negotiations started.
    But if even in this interim agreement is such that, you 
know, their economy is still taking it on the chin, they have 
been able to invest a stunning amount of resources in expanding 
their influence around the Middle East. It has been amazing.
    Mr. Takeyh. There is no question that they are apportioning 
whatever money they have in an injudicious way and the welfare 
of their population doesn't seem to be their priority on that. 
That is true about most revolutionary states and this is one of 
them.
    Mr. McInnis. I would just add to that point that one of our 
major foreign policy failures several years ago was the 
underestimation of how far Iran would go to prop up Assad.
    I think there was a general consensus here in Washington 
and other capitals that Assad's days were numbered, as the 
President said. That really underestimated the fact that Syria 
is absolutely essential for Iran's foreign policy, for its 
ideological objectives, for its religious objectives, that they 
cannot--even if they have lots of problems with Assad himself, 
they can't lose Syria and I think we have kind of lost the fact 
that Iran is not going to be pulling back from its foreign 
policies that it has been pursuing since the end of their 
revolution.
    And, frankly, on the money issue, yeah, the money keeps 
flowing but at the same time the amount of money it needs--that 
Iran needs to be able to kind of keep up its efforts there in 
the region is still--I mean, Iran--as much as Iran's economy is 
strained, it still doesn't spend tons of money on military 
issues. Its percentage of GDP on defense is, like, under 4 
percent.
    Mr. Kinzinger. And because my time is up, I just want to 
wrap up with saying this. I think if there is an attempt by the 
administration to come to this body and even--or not come to 
the body but say, we need additional time, I mean, I hope and I 
think there would be bipartisan support to not give that 
because I can't see what would happen in another 6 months that 
we didn't have an opportunity to do in the first year and I, 
frankly, think reinstating the sanctions and walking away from 
the table and saying fine, you chose your own destiny, is much 
more powerful than saying yeah, I know, we didn't have enough 
conversations so you need another 6 months. I yield back.
    Mr. Poe. The gentleman yields back his time. The Chair 
recognizes Mr. Schneider, the gentleman from Illinois.
    Mr. Schneider. Thank you, Mr. Chairman.
    Dr. Takeyh, you mentioned that there are multiple--you 
referenced the fact that there are multiple U.N. Security 
Council resolutions saying that Iran has effectively zero right 
to enrichment.
    Yet, Mr. Albright, you talked about, potentially, 4,000 
centrifuges. Could all of you touch on, I'm trying to think of 
the best way to phrase the question is why, if any, number of 
centrifuges are acceptable for a final agreement with Iran?
    Mr. Takeyh. I think the U.N. Security Council resolutions 
have suggested that Iran has to suspend its activities and come 
into compliance and then a deal can be negotiated that may 
actually involve some residual enrichment.
    One of the assumptions that has guided the United States 
across two administrations has been that, if you settle for 
limited number of centrifuges and limited enrichment, then 
Iranian pride would be satisfied and therefore they would 
settle for that permanent symbolic program.
    What the Iranians have said persistently, publicly and 
privately, is that they are seeking an industrial-size program. 
So whatever enrichment capacity they have, they do envision 
that capacity to be industrialized, and I would just say that 
the comprehensive deal that is being negotiated today in of 
itself is also an interim deal of duration.
    It will have a sunset clause at some point. Maybe that 
sunset clause is 15 years, maybe it is 10 years, and there is 
some discrepancy about that. But subsequent to that, Iran is 
under no legal stricture to expand its program.
    It can, therefore, have an industrial enrichment capability 
that is legal, sanctioned and without any hazards of economic 
penalties.
    Mr. Schneider. Mr. McInnis?
    Mr. McInnis. Actually, I yield to Mr. Albright.
    Mr. Albright. Yes. If you think of it in terms of breakout 
time, which is what drove us to this number and it is a 
combination of centrifuges and stocks----
    Mr. Schneider. Yes, I have turned in your submitted 
testimony to the charts.
    Mr. Albright. Okay. Oh, okay. But if they had no 
centrifuges at all we would estimate their breakout time is 2 
years. So, they know how to do it. They can make them and so 
you can't eliminate that and so then the question is how many 
can you accept under some kind of criteria like breakout and 
verifiability and we ended up that we could live with 4,000.
    Now, in terms of their right, I think we're paying a very 
heavy price. I mean, I am not a lawyer. I understand--I have 
seen Senator Kerry say they have no right to enrich--it is not 
in the treaty.
    But for us, it is a tough compromise to accept because we 
work just as much on North Korea, in theory at least, as Iran. 
This is a special time, and that pivot to Asia, while it may be 
opposed by those working on the Middle East, those working on 
North Korea see a desperate need for more U.S. attention to 
stop North Korea's nuclear weapons advancements.
    And so, now I know it probably will be impossible to argue 
that North Korea give up its centrifuge program because of what 
is happening in Iran.
    So I think that it is where compromises are being made. We 
are accepting them at my organization but they are very 
problematic and they are going to cause problems and that means 
that, in any deal that is gained, Iran has to be made to pay a 
very heavy price for it and there does need to be some kind of 
condition at the end so that the program is under special 
arrangements that keep it and other countries from being able 
to claim that they can just go ahead and build as many 
centrifuges as they want.
    Mr. Schneider. And--I am sorry. Go ahead, Mr. McInnis.
    Mr. McInnis. I would just add one quick comment on that. 
One of the things I think we underestimated in why Iran came to 
the table last year is because, as Mr. Albright was saying, 
they have actually achieved a certain technological capability 
that is almost impossible to walk backwards from and so that is 
something that, you know, once they had--which they were not 
at, say, 6, 7 years ago when there was much more at risk for 
them.
    So I think they are at a confidence level that allows them 
to come to the table because there is only so much we can do to 
them.
    Mr. Schneider. Thank you. Mr. Albright, to build on your 
comment, at zero centrifuges because of their know-how they are 
2 years away from a breakout.
    At the current 19,000, approximately, IR-1 centrifuges if 
they were to operate all of those you estimated a year ago that 
the JPOA moved it back from, if I remember correctly, 1.3 to 
1.6 months?
    Mr. Albright. Yes, there is a difference now for us. It was 
from 2 months to 3 months, that was the walk back, still well 
within 20 percent.
    Mr. Schneider. But still well within a year. My question is 
what is an acceptable time frame moving them back from that 3 
months to somewhere between 3 months and 2 years that the 
international community should be expected to live with if 
there is a number?
    Mr. Albright. The U.S. position is 1 year. That translates 
into, at least in our calculations, about 2,000 IR-1s staying 
in place with certain amounts of low-enriched uranium.
    So we think 6 months and, again, it is 6 months to the 
point where they have enough weapon-grade uranium for a bomb 
and we think that is--that is acceptable.
    The administration told us many times that they want a 
year. They see ours as too short and, you know, if they can get 
a year I am all for it.
    Mr. Schneider. Just because of limited time I am going to 
take back and turn now to the Iraq heavy water reactor. Is 
there----
    Mr. Poe. The gentleman's time has expired.
    Mr. Schneider. I am out of time.
    Mr. Poe. The Chair recognizes the gentleman from 
Pennsylvania, Mr. Perry, for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, gentlemen. 
It seems to me that any negotiation deal is predicated on trust 
and whether it is regarding Iran's nuclear program or buying a 
car that is the minimum requirement.
    So with that in mind, as far as I am aware, last month the 
IAEA reported that Iran did not provide information about work 
it had completed on high explosives for a nuclear bomb and 
other possible military dimensions of its nuclear program, even 
though it promised to do so back in November 2011.
    So we're 3 years in. Can anybody explain what this means? I 
mean, to me it is somewhat obvious but maybe I am missing 
something.
    Sometimes things are counterintuitive. So is there 
something I am--you know, if I am trying to build a nuclear 
weapon I imagine I want a triggering device and so on and so 
forth and I don't want to tell anybody if everybody is mad 
about me doing it.
    So this seems axiomatic to me. Are we foolish Americans 
missing something?
    Mr. Albright. No, I don't think so. No, I think it is one 
of the reasons why I don't think there should be a deal until 
Iran has demonstrated some concrete progress on addressing the 
inspectors' issues and that dealing with the high explosives 
was one of the test cases.
    They promised to do it I forget when. Was it back in May, I 
think? And they didn't and then they told the IAEA, in my mind 
making it even worse, that we don't even want to have another 
meeting until after November 24th.
    So I think it is a very troubling development and I think 
what Iran is trying to do is seeing if they can get away with 
it. There are also many people who are saying the past doesn't 
matter and that why do we bother with this.
    So I think it is very important that Congress have a very 
strong voice in saying that it does matter and I know all my 
experience in inspections and working on verification is the 
past does matter and the warning for that should be what 
happened in Iraq in 1991 when the IAEA and others did not worry 
about the past and only focused on the present and the future. 
It turned out they had a very large nuclear weapons program 
that had been missed by the inspectors.
    So I think the IAEA learned from that and they want to know 
the past.
    Mr. Perry. Well, why wouldn't the past matter in this 
context? I mean, what other measure of trust would you have? If 
you just met somebody--Country A met Country B for the first 
time--you establish a certain level--a base level of 
trustworthiness because you have to start somewhere.
    But in this context----
    Mr. Albright. Well, you can't build it on trust. That is 
why they have the rules we want to know the past.
    Mr. Perry. Right.
    Mr. Albright. I mean, you can't build it on trust. Maybe 
you can--later you can have trust----
    Mr. Perry. But aren't our--but aren't our actions 
currently--don't they portend that they are built on trust?
    Mr. Albright. No, I--no, I don't think so. No, I don't----
    Mr. Perry. Are our actions?
    Mr. Albright. In terms of there is--in the negotiations I 
think there has been quite a rapport built up between U.S. 
negotiators and the Iranians but I don't think the U.S. actions 
are based on trust.
    Mr. Kinzinger raised an important point. I had the 
privilege of listening to some of the investigators who tracked 
back not only the IEDs but it was the purchase of key 
electronic components for those IEDs in the United States and 
they were able to identify the Iranians, particularly one 
Iranian in Tehran, who was at the center of this network.
    So I think all of them understand that we are dealing with 
a regime we cannot trust.
    Mr. Perry. That is exactly my point, but yet we are moving 
forward as if we should trust them when they have given us 
nothing to be trustworthy about.
    Mr. Albright. Well, I think the United States has to remain 
firm. I mean, I think they have conditions, they were laid out 
and that they should remain firm in achieving those conditions 
and not very much from the--I don't want to call them red lines 
because they tend not to use those terms but they are core--
they are core requirements for a successful deal.
    Mr. Perry. Does a nuclear explosive device that--the 
triggering that you discussed in May, is there any other 
application for said device other than----
    Mr. Albright. There are always other applications, and Iran 
is seeking those. That is how it tries to answer this; it comes 
up with some civil use.
    Mr. Perry. Give us some examples, if you have them.
    Mr. Albright. Well, with the exploding bridge wires--the 
IAEA evidence combined on those, combined with other 
information is pretty clear that it was to detonate a nuclear 
explosive.
    Iran has tried to argue no, no, it is just for other 
military purposes. They have tried to even concoct, I believe, 
some civil purposes.
    You can always do that and in fact the approach Iran has 
taken and it could be an effective one, is to give nothing 
away. They deny they ever had a nuclear weapons program.
    They deny the IAEA access to all information that could 
confirm what they are suspecting or alleging. They deny them 
access to facilities where they could get information and they 
deny them access to people.
    In a sense, what Iran learned is the best lie is the total 
lie. So if you are going to have a front have a complete front 
and don't give at all. That is what, I think, Iran cannot get 
away with if there is going to be a deal.
    Mr. Perry. Okay. So----
    Mr. Poe. The gentleman's time has expired.
    Mr. Perry. Thank you, Mr. Chair.
    Mr. Poe. Gentleman's time has expired. I thank the 
gentleman. The Chair recognizes the gentleman from California, 
Mr. Vargas, 5 minutes.
    Mr. Vargas. And thank you, Judge Poe, and again, thank you 
for holding this hearing and the people who are here today 
testifying. I am--I think that they have denied everything and 
I actually never agreed to the interim agreement.
    I thought it was a mistake. I continue to think it is a 
mistake. I think that we were naive going into this entire 
process. I believed that the sanctions were working.
    I voted to screw down even harder sanctions and I think 
that that is the way we should have gone. We should have made 
them make that decision, do you want your nuclear program or do 
you want an economy--do you want a society.
    Unfortunately, we didn't go down that route and here we 
are, and I don't believe we are going to get an agreement. I 
remember thinking that once we got to the end of that interim 
agreement that in fact it was going to be extended.
    People said no, we will get to that agreement. Well, we are 
about to reach the extension and say well, we are going to--we 
are going to extend it again, and it is exactly, I think, what 
many of us believed.
    And during the whole time they haven't stopped. They 
haven't gotten rid of their centrifuges. In fact, I will ask 
you about that. Do they still have their centrifuges? Can they 
still enrich? They haven't gotten rid of a single one of them, 
have they?
    Mr. Takeyh. They have committed to--David can speak about 
this--essentially transform the enriched uranium into a 
chemical compound that is less accessible in terms of 
oxidization.
    Mr. Vargas. Right. But the centrifuges themselves--have 
they committed to getting rid of them? Have they gotten rid of 
any?
    Mr. Takeyh. The parameters of the Joint Plan of Action they 
were not required to so. Yes.
    Mr. Vargas. That is right, and I think it has been a 
terrible mistake. The other thing, though, I want to--because I 
don't have much time, I do want to focus on the sunset because 
I think that is even more dangerous.
    Do you remember when the revolution started there? 1979. 
How many years is that? Thirty-five years. Now, they want a 5-
year deal. We are looking at maybe a 10- or 15- or 20-year 
deal, and after that they are treated the same as Japan or 
Germany or any of these other countries.
    They get to walk out from underneath these sanctions and 
all these other restrictions. I mean, how can that possibly be 
the case?
    Mr. Takeyh. My guess would be that if there is a 
comprehensive plan of action negotiated it will be an 
extraordinary complicated document which will have stages and 
there will not be a single sunset clause but sunset clauses.
    So some capabilities come online after 2 years, some after 
three, some after five and I think that is how they are going 
to pursue and at some end point and then the program will be 
unhinged from any kind of internationally mandated 
restrictions.
    Mr. Vargas. Would anyone else like to comment? I haven't 
heard that process until right now.
    Mr. Albright. Yes. Yes. I don't know the details. I mean, 
originally, and I heard this currently from administration 
officials, is they were really thinking on order of 30 years, a 
full generation, and that in that time they would expect Iran 
to have changed at least on the nuclear----
    Mr. Vargas. As they have in the last 35 years?
    Mr. Albright. Well, I am explaining on the nuclear issue. 
They weren't expecting them to change on the regime necessarily 
but on the nuclear program the people would have aged.
    We saw this in the Iraqi nuclear program. I mean, the 
people--the nuclear experts in 2003, when I met some of them 
after the fall of Baghdad, were not of the caliber they had 
been in 1999 and 2000 when they--when they were actively 
engaged in their centrifuge program and in 2003 there were 
fewer of them.
    So I think they are counting on a whole generation to have 
an impact. Now, the trouble is they have walked back from that 
30 years and we are now hearing of 10 years, 15 years. So there 
will have to be some criteria on the--at the end of the deal.
    It can't just be some, you know, it is tough and then 
suddenly it disappears. So there is going to have to be----
    Mr. Vargas. Doctor, did you have a comment on that? It 
seemed like you wanted to comment.
    Mr. Takeyh. Well, no. I just think that, you know, given 
the fact that this--I mean, I don't know the details of 
negotiations but given the fact that any agreement will unfold 
in stages, presumably at every stage Iranian nuclear capacity 
enlarges after the initial agreement that puts some curbs and 
perhaps some restrictions on it, and then the trajectory is 
that it will get to--it will get to a point where it is without 
restriction and then the decision to have an industrial-size 
program will be a national decision--the Iranian Government's 
decision and they take into account all the factors that go 
into that.
    Mr. Vargas. Well, I just have 20 seconds left. I guess I 
would say I think we are going down the wrong path. I have 
always believed that. I hope we get back to the sanctions and I 
think that they have stalled.
    They have stalled magnificently. We have been caught up in 
it. We have been naive and we continue to be naive. Thank you, 
Mr. Chairman.
    Mr. Poe. I thank the gentleman from California. The Chair 
will recognize the gentleman from Arkansas, Mr. Cotton, for his 
5 minutes.
    Mr. Cotton. Thank you, and first, to save my time, I will 
associate myself with all the comments Mr. Vargas just made 
about the folly of pursuing this course from the outset. But 
here we are.
    I have heard it said that any attack on a nuclear weapons 
system could only set back a country by 5 years because a 
country starting from scratch could develop nuclear weapons in 
5 years with the right technical expertise.
    Is that a correct estimate, in your opinions? Let me start 
with Mr. Albright and go down the----
    Mr. Albright. I think it is hard to know. I mean, in the 
case of the Iraq bombing in 1981, I mean, it may have 
accelerated the program. I mean, it was limping along quietly, 
a small program around a safeguarded reactor and after that 
bombing it took off.
    And the issue, though, I think is--it is not--is to--if any 
military strategy is going to be proposed, I mean, I and my 
organization are opposed to those. I mean, we see it as a 
failure of policy.
    But if anything like that was proposed, you can't go in 
with just one strike. I mean, you have to be able to go back. 
You have to ensure that any military strategy is constructed so 
that Iran doesn't rebuild--that it understands that to rebuild 
is to suffer even worse consequences.
    And so that has to be more of the guiding philosophy than 
thinking that one strike could do much of anything.
    Mr. Cotton. Mr. McInnis?
    Mr. McInnis. What I would add, and certainly, this was, you 
know, something that is involved in the U.S. Central Command 
and other parts of the government. I think that there is, in 
agreement with Dr. Albright, a general understanding that you 
have to take, to use an Israeli expression here, mowing the 
lawn with this type of approach--that there is no way to really 
walk this all the way back more than a few years. I think this 
was, again, one of the reasons why, again, Iran was willing to 
come to the table at this stage because they had gotten this 
far and they don't have to go backwards or at least they could 
never be pushed back far enough that they couldn't recuperate. 
And I think that there is another, you know, issue here that, 
you know, that the Iranians are looking, you know, frankly, at. 
A potential loss of a deal, if nothing comes through in 
November or beyond, the prospects for a military option could 
be back on the table either with Israel or the U.S.
    I have been, you know, in watching the Iranians talk over 
the last few months, you know, they have been going through 
some additional interesting cycles of being spooked by the 
Israelis and beginning in August of this year and I do think 
that even though I think the drop in oil prices has been a 
particular pressure on them this fall to make them a little bit 
more eager and desperate for a deal I think behind the scenes 
the thought that the military option may be back on the table 
is affecting their calculus to some degree.
    Mr. Cotton. Dr. Takeyh?
    Mr. Takeyh. I agree with those statements.
    Mr. Cotton. Okay. And thinking about negotiations it is 
always important to think about the ultimate motives or goals 
of your negotiating partner or adversary, as the case may be.
    Thucydides said peoples go to war because of fear, interest 
and honor. Why do you think Iran has been pursuing a nuclear 
weapon for so long? Start with Dr. Takeyh and go down the other 
way.
    Mr. Takeyh. I do think they have a nuclear weapons program 
because they think that having achieved that capability, and I 
do think when they get to the point of threshold they will 
cross. I don't think they will have this sort of a murky hedge 
options.
    It, first of all, provides them a deterrent capability and 
that deterrent capability gives you an ability to project 
power. So there is a seamless connection between projection of 
power and deterrence.
    Mr. Cotton. Primarily against the United States and Israel?
    Mr. Takeyh. Primarily but not exclusively. So in that 
particular sense, also when Iran looks at the Persian Gulf the 
conventional balance of power tends to be--to its disfavor, 
given the level of Saudi armament and so on. So a combination 
of nuclear capability, unconventional capability married to a 
significant missile fleet kind of negates that.
    Mr. McInnis. Yes. I would just add that, you know, 
certainly coming out of the Iran-Iraq war we knew back in the 
1980s there was, you know, a real kind of prohibition, I think, 
in thinking about a nuclear program because the shah had 
pursued one.
    But I think that watching what happened after the Iran-Iraq 
war and seeing how existential some of their crises they are 
facing that they would need some type of capacity to basically 
make us back off or make Iraq back off or, you know, or Israel 
or anyone else.
    I mean, they look at what happened with Libya. They look at 
North Korea and those situations and I think they continue to 
take it to heart that they need something to make us never ever 
think about invading.
    Mr. Takeyh. If there is time I would like to have a slight 
disagreement with Bill but if there is not that is fine.
    Mr. Cotton. It is the hands of the judge.
    Mr. Poe. Well, the gentleman's time has expired. Mr. 
Albright, you can put your answer in writing and so can you, 
Dr. Takeyh. The Chair will recognize the gentleman from Texas, 
Mr. Castro, 5 minutes.
    Mr. Castro. Thank you, Chairman. Thank you, gentlemen, for 
your testimony this afternoon. I came in a little bit late so I 
apologize if I am retreading over ground that was covered.
    But do any of you recommend an extension for the bargaining 
period--the negotiations period?
    Mr. Takeyh. I think November, as I mentioned, the 24th 
deadline is an artificial one and the administration does 
really have until January according to the terms of the Joint 
Plan of Action. So they don't really require an extension up to 
that point.
    Mr. Castro. Okay.
    Mr. McInnis. Certainly, if it actually gets us a better 
deal and allows some of the additional pressures to take hold, 
yes, I would support an extension.
    Mr. Albright. Yes. I would accept an extension. I would 
add, though, that it needs to be negotiated carefully because I 
think the current interim deal is fraying and there are 
problems and that those have to be addressed and so that it 
can't just be some simple rubber stamp extension.
    Mr. Castro. So it sounds like the panel here is open to an 
extension. But let us imagine that everything falls apart and 
there is no agreement. What happens then?
    Mr. Albright. Well, I think--I hope and I am not 
encouraged, but I would hope the administration had worked up a 
plan of action. I mean, that is what one would expect is----
    Mr. Castro. A plan of action on sanctions, for example?
    Mr. Albright. Well, that would include sanctions. I mean, 
you have to manage the escalation. Iran, in reaction to the 
Kirk-Menendez bill, they sent out a signal that if that bill is 
passed or they called it sanctions imposed that they would then 
start making 60 percent enriched uranium which, if you do the 
calculations, is awfully close to weapon grade.
    Mr. Castro. I guess let me ask you what additional 
sanctions----
    Mr. Albright. You want to manage the escalation.
    Mr. Castro. Sure, and what additional sanctions would you 
all impose that we aren't already doing? What are the 
additional sanctions you would impose?
    Mr. Albright. Well, I think Congressman Sherman had a few 
ideas----
    Mr. Castro. Sure. Sure. Sure.
    Mr. Albright [continuing]. That I think there is lots of 
room for imposing sanctions. I think the----
    Mr. Castro. But what specifically are the additional 
sanctions you would impose?
    Mr. Albright. Well, you could impose driving down the oil 
exports of Iran further. You could take steps to discourage any 
foreign companies selling to Iran. I mean, I think there is----
    Mr. Castro. But aren't we--I mean, aren't we applying a lot 
of that pressure now? Are sanctions doing a lot of that now?
    Mr. Albright. No. No. There is a lot of pressure to do--
there are things happening. I think another area that would be 
fruitfully explored is additional financial sanctions.
    Not all banks are sanctioned in Iran. They have some 
connections to the international financial system. So I think 
that you could--you could explore that. I think those tend to 
be the most effective.
    But, again, I think it--you don't want to have a wildly 
escalating situation.
    Mr. Castro. Sure. Well, and let me ask you----
    Mr. Albright. Iran already knows how to make nuclear 
weapons.
    Mr. Castro. Let us imagine that Iran become more isolated 
and the sanctions are not enough. Do you support military 
action against Iran?
    Mr. Albright. No, I do not.
    Mr. McInnis. Only in the most extreme circumstances where 
we have a clear indication that they are actually breaking out 
and pursuing a nuclear weapon.
    Mr. Castro. What would that extreme circumstance look like 
exactly?
    Mr. McInnis. Well, it would be us detecting they actually 
have decided to pursue this. I think this is something that I 
would be very hesitant to take, given some of the implications 
from--it is the same reason why the Israelis have held back on 
the trigger for so long.
    Mr. Takeyh. And just in terms of, briefly, on the 
sanctions, under the previous legislation Iran, which has about 
five or six purchasers of oil, had to decline their oil 
purchases by 5 percent every several months to conform with 
those sanctions and not be subject to secondary measures by the 
United States.
    Under the Joint Plan of Action, those have been suspended 
so the reenactment of those, I think, could affect markets. 
Now, whether the Chinese are going to comply to them or not I 
am--it is going to be difficult. As of when--I can't make that 
decision, Congressman, when to use military force.
    I just cannot at this point have the necessary information 
to think about that particular issue. I think it is one of the 
most serious considerations that an American President has to 
make and he has to take into consideration a great many things 
before making that decision--the scope, pace of the program, 
the ramifications of that attack.
    There is one thing and only one thing that Hitler knew and 
that was war--he used to say war is like stepping into a dark 
room--you could step on something toxic or nothing at all, but 
you never know until you walk in.
    So you are essentially suggesting when do you walk into the 
dark room.
    Mr. Castro. How much time do I have, Chair? How am I doing?
    Mr. Poe. Twenty seconds.
    Mr. Castro. All right. I yield back.
    Mr. Poe. I thank the gentleman. I will say this to the 
gentleman from Arkansas who wanted to continue to ask 
questions, congratulations on your election and you will find 
that in the Senate they have no time limits on anything.
    So you will be able to pontificate and ask questions 
indefinitely.
    Mr. Cotton. I am going to have to learn to be much more 
long winded then.
    Mr. Poe. I want to thank all the gentlemen for being here. 
The information has been excellent. And this subcommittee is 
adjourned. Thank you.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
